February 16, 2007

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Transmittal of Audit Report – Audit of Statistical Tests for Fiscal
         Year 2006 – Cost and Revenue Analysis (Report Number FF-AR-07-093)

This report presents the results of our audit of the statistical tests for the fiscal
year 2006 Cost and Revenue Analysis (Project Number 06BD005FF000, formerly
Project Number 06XD005FF000). We reviewed tests of the Origin-Destination
Information System-Revenue, Pieces, and Weight (ODIS-RPW); the In-Office Cost
System (IOCS); the Transportation Cost System (TRACS); and the System for
International Revenue and Volume Outbound-International Origin-Destination
Information System (SIRVO-IODIS). We conducted the audit in support of the U.S.
Postal Service’s Cost and Revenue Analysis.

The Postal Service generally conducted tests of the ODIS-RPW, IOCS, TRACS, and
SIRVO-IODIS in accordance with established policies and procedures. Of the 285 tests
observed, we identified 41 test errors. However, we do not believe these errors affected
the overall validity of the process. In this report, we discuss only those errors1 that
occurred in at least 5 percent of the tests observed for that system. In addition to the
testing errors, data collectors in seven districts did not always follow procedures for
protecting data collection equipment; data collectors in two districts had not attended
the required training before conducting tests; and in two districts, Statistical Programs
managers did not properly define mail exit points. Since the Postal Service uses the
results of statistical tests in ratemaking, the data must be as accurate and consistent as
possible. Consequently, improvements are needed to maintain the integrity of the
statistical data.

We recommended management use training to reinforce data collection procedures to
ensure the integrity of the statistical data. In addition, we recommended management
reinforce policies for protecting Computerized On-Site Data Entry System laptops and
other test equipment, require training for data collectors prior to their conducting tests,
and properly define mail exit points. Management agreed with the recommendations
and stated they will instruct Statistical Programs managers to reinforce data collection
procedures to ensure the integrity of the statistical data. In addition, management
1
 Fourteen tests had the 19 most frequently identified test errors: 18 in ODIS-RPW and one in TRACS. Some tests
had more than one error. Appendix B is a summary of all test errors identified in our 285 test observations.
stated they would reinforce policies about data and laptop security, training
requirements, and mail exit point (MEP) definition. Management’s comments and our
evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Linda Libician-
Welch, Director, Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: H. Glen Walker
    J. Ron Poland
    Stephen J. Nickerson
    Deborah A. Kendall
Audit of Statistical Tests for Fiscal Year 2006 –                    FF-AR-07-093
 Cost and Revenue Analysis


                                      TABLE OF CONTENTS

 Executive Summary                                                             i

 Part I

 Introduction                                                                 1

     Background                                                               1
     Objective, Scope, and Methodology                                        3
     Prior Audit Coverage                                                     3

 Part II

 Audit Results                                                                5

     Observations                                                             5
     Test Results                                                             5
     Data Collection Equipment                                                6
     Data Collection Training                                                 6
     Mail Exit Point                                                          7
     Recommendation                                                           7
     Management’s Comments                                                    7
     Evaluation of Management’s Comments                                      7

 Appendix A. Fiscal Year 2006 Cost and Revenue Analysis:                      9
             Summary of Observations of Data Collection Procedures

 Appendix B. Summary of Test Errors and Observations By District             10

 Appendix C. Management’s Comments                                           12
Audit of Statistical Tests for Fiscal Year 2006 –                                                 FF-AR-07-093
 Cost and Revenue Analysis


                                      EXECUTIVE SUMMARY
    Introduction                  This report presents the results of our audit of statistical
                                  tests for the fiscal year 2006 Cost and Revenue Analysis.
                                  We reviewed tests of the Origin-Destination Information
                                  System-Revenue, Pieces, and Weight (ODIS-RPW); the
                                  In-Office Cost System (IOCS); the Transportation Cost
                                  System (TRACS); and the System for International Revenue
                                  and Volume Outbound-International Origin-Destination
                                  Information System (SIRVO-IODIS). We conducted the
                                  audit in support of the U.S. Postal Service’s Cost and
                                  Revenue Analysis.

                                  The Postal Service conducts statistical tests to collect cost,
                                  revenue, and volume data. Our audit objective was to
                                  determine whether the Postal Service conducted these tests
                                  in accordance with established policies and procedures.
                                  We observed 119 data collectors performing cost and
                                  revenue analysis tests in 18 judgmentally selected districts.
                                  At the completion of our audits, we issued 18 audit reports
                                  to district managers.

    Results in Brief              The Postal Service generally conducted its tests of the
                                  ODIS-RPW, IOCS, TRACS, and SIRVO-IODIS in
                                  accordance with established policies and procedures. We
                                  identified 41 testing errors in 285 tests observed. However,
                                  we do not believe these errors affected the overall validity of
                                  the process. In this report, we discuss only those errors2
                                  that occurred in at least 5 percent of the tests observed for
                                  that system. For example, the most frequently identified
                                  test errors involved data collectors not always:

                                       •   Using marking slips to identify test mail.

                                       •   Following mail exit point (MEP) and special
                                           instructions while conducting ODIS-RPW tests.

                                       •   Observing the entire contents of vehicles when
                                           collecting utilization data in TRACS testing.




2
 Fourteen tests had the 19 most frequently identified test errors: 18 in ODIS-RPW and one in TRACS. Some tests
had more than one error. Appendix B is a summary of all test errors identified in our 285 test observations.




                                                        i
Audit of Statistical Tests for Fiscal Year 2006 –                                     FF-AR-07-093
 Cost and Revenue Analysis



                                  In addition to the testing errors, data collectors in seven
                                  districts did not always follow procedures for protecting data
                                  collection equipment; data collectors in two districts had not
                                  attended the required training before conducting tests; and
                                  in two districts, Statistical Programs managers did not
                                  properly define MEPs.

 Summary of                       We recommended management use training to reinforce
 Recommendations                  data collection procedures to ensure the integrity of the
                                  statistical data.

                                  We also recommended management reinforce policies for
                                  protecting Computerized On-Site Data Entry System
                                  (CODES) laptops and other test equipment, require training
                                  for data collectors prior to their conducting tests, and
                                  properly define MEPs.

 Summary of                       Management agreed with our recommendations and stated
 Management’s                     they will instruct Statistical Programs managers to reinforce
 Comments                         data collection procedures to ensure the integrity of the
                                  statistical data. In addition, management stated they would
                                  reinforce policies about data and laptop security, training
                                  requirements, and defining MEPs. Management will
                                  complete these actions by March 5, 2007. We have
                                  included management‘s comments, in their entirely, in
                                  Appendix C.

 Overall Evaluation of            Management’s comments are responsive to our findings
 Management’s                     and recommendations and the actions taken or planned
 Comments                         should correct the issues identified in this report.




                                                    ii
Audit of Statistical Tests for Fiscal Year 2006 –                                    FF-AR-07-093
 Cost and Revenue Analysis


                                            INTRODUCTION
 Background                       The Postal Reorganization Act of 1970 requires the U.S.
                                  Postal Service to break even financially over a period of
                                  years. Total revenue must equal total costs incurred by the
                                  Postal Service. The act specifies that each class or type of
                                  mail service should bear the direct and indirect costs
                                  attributable to that sub-class. To meet this requirement, the
                                  Postal Service must determine the cost, revenue, and
                                  volume of each mail class, subclass, and special mail
                                  service. However, Postal Service revenue and cost
                                  accounting systems do not provide revenue and cost
                                  information at the subclass and special service levels.
                                  Therefore, the Postal Service needs various statistical
                                  systems and special studies to develop estimates of costs,
                                  revenues, and volumes for categories of mail. The Postal
                                  Service uses these estimates to prepare rate cases and
                                  budgets, conduct cost studies, and measure mail flow and
                                  service performance.

 Origin-Destination               The Origin-Destination Information System-Revenue,
 Information System-              Pieces, and Weight (ODIS-RPW) is the primary probability
 Revenue, Pieces, and             sampling system that estimates revenue, volume flow,
 Weight                           weight, and performance measurement. The Postal Service
                                  uses data from tests to develop proposals for new rates,
                                  assist in budget preparation, conduct management studies,
                                  and support management decisions concerning mail flow
                                  and service performance in transportation and operations.

                                  The ODIS-RPW test requires data collectors to
                                  systematically select mailpieces using a random start for all
                                  mail available on the randomly selected day. Data
                                  collectors record various mailpiece characteristics, such as
                                  revenue, weight, shape, indicia, barcode, postmark time,
                                  and origin and mail class.

                                  Handbook F-75, Data Collection User’s Guide for Revenue,
                                  Volume, and Performance Measurement Systems, October
                                  2003, states that data collectors are responsible for
                                  isolating, counting, and recording the appropriate mailpieces
                                  for the tests.

 In-Office Cost                   The In-Office Cost System (IOCS) provides data for
 System                           estimating labor costs in post offices and special processing
                                  facilities. The system does this by sampling the activity of



                                                    1
Audit of Statistical Tests for Fiscal Year 2006 –                                        FF-AR-07-093
 Cost and Revenue Analysis


                                  an employee at a given point in time and estimating the
                                  proportion of employee work time spent on various
                                  functions, including handling or processing categories of
                                  mail. Management then uses time proportions to estimate
                                  the costs attributable to each class and subclass of mail and
                                  each special service.

                                  Handbook F-45, In-Office Cost System – Field Operating
                                  Instructions, October 2004, states that every employee who
                                  participates in a reading is responsible for properly
                                  collecting required information. This includes the data
                                  collector, the sampled employee, and others who may
                                  provide information to the data collector about the sampled
                                  employee.

 Transportation Cost              The Transportation Cost System (TRACS) is a statistical
 System                           sampling and data collection system that provides
                                  information to estimate costs by subclass for the major cost
                                  accounts for interfacility purchased transportation. TRACS
                                  uses four separate sampling systems to collect data:
                                  highway, rail, passenger air, and network air. TRACS
                                  develops:

                                       •   Cubic-foot-mile distribution keys for highway and rail
                                           costs.

                                       •   Pound-mile distribution keys for passenger air costs.

                                       •   Pound distribution for night turn network air costs.

                                       •   Cubic foot distribution for day turn network air costs.

                                  Handbook F-65, Data Collection User’s Guide for Cost
                                  Systems, September 2001, gives detailed instructions to
                                  data collectors for testing truck, air, and rail trips.

 System for                       The System for International Revenue and Volume
 International Revenue            Outbound-International Origin-Destination Information
 and Volume Outbound-             System (SIRVO-IODIS) is one of two sampling systems that
 International Origin-            estimate revenue, volume, and weight of international mail
 Destination Information          for the Postal Service. Postal Service management uses
 System                           SIRVO-IODIS data to assist in budgeting and planning,
                                  based on forecasts of mail volume, workloads, and overall
                                  productivity.




                                                     2
Audit of Statistical Tests for Fiscal Year 2006 –                                       FF-AR-07-093
 Cost and Revenue Analysis



                                  Handbook F-85, Data Collection User’s Guide for
                                  International Revenue, Volume, and Performance
                                  Measurement Systems, February 2000, gives detailed
                                  instructions to data collectors for testing international mail.

    Objective, Scope, and         The objective of our audit was to determine whether the
    Methodology                   Postal Service conducted statistical tests to collect cost,
                                  revenue, and volume data in accordance with established
                                  policies and procedures. To accomplish our objective,
                                  we conducted fieldwork from December 2005 through
                                  September 2006. We observed 119 data collectors
                                  performing cost and revenue analysis tests in
                                  18 judgmentally selected districts.

                                  Specifically, we judgmentally selected and observed:3

                                       •   76 ODIS-RPW tests
                                       •   177 IOCS tests
                                       •   17 TRACS tests
                                       •   15 SIRVO-IODIS tests

                                  We interviewed the data collectors performing selected tests
                                  and reviewed the reports of each test district provided by
                                  Statistical Programs managers.

                                  We conducted this audit from December 2005 through
                                  February 2007 in accordance with generally accepted
                                  government auditing standards, and included such tests of
                                  internal controls as we considered necessary under the
                                  circumstances. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments where appropriate. We also issued interim
                                  reports to 18 district managers.

    Prior Audit Coverage          The U.S. Postal Service Office of Inspector General issued
                                  a report titled, Audit of Statistical Tests for Fiscal Year 2005
                                  – Cost and Revenue Analysis (Report Number
                                  FF-AR-06-091, dated March 6, 2006). The report stated
                                  that employees did not always communicate with test site
                                  personnel, follow procedures for isolating mail to be
                                  sampled, use marking slips to identify sampled mail, bring
                                  required test materials to the test site, level scales properly,

3
    See table in Appendix A.




                                                    3
Audit of Statistical Tests for Fiscal Year 2006 –                                     FF-AR-07-093
 Cost and Revenue Analysis


                                  follow scripted IOCS questions, or verify identification codes
                                  for dispatch and routing. Also, Statistical Programs
                                  managers did not always review MEPs.

                                  Management agreed with our findings and directed district
                                  managers of Statistical Programs to reinforce, through
                                  training, the correct procedures for isolating mail to be
                                  sampled, using marking slips to identify sampled mail,
                                  bringing required test materials to the test site, leveling
                                  scales properly, following scripted IOCS questions, verifying
                                  identification codes for dispatch and routing, and conducting
                                  MEP reviews.




                                                    4
Audit of Statistical Tests for Fiscal Year 2006 –                                                            FF-AR-07-093
 Cost and Revenue Analysis


                                               AUDIT RESULTS
    Observations                      The Postal Service generally conducted tests of ODIS-
                                      RPW, IOCS, TRACS, and SIRVO-IODIS in accordance with
                                      established policies and procedures. However, we
                                      observed the following test errors for each system,4 and
                                      noted other issues related to data collection equipment,
                                      training, and MEPs.5

    Test Results                      ODIS-RPW:

                                      We observed 76 ODIS-RPW tests and identified the
                                      following issues in at least 5 percent of the tests observed.6
                                      Specifically, data collectors did not:

                                          •    Use marking slips to identify sampled mail in
                                               13 tests.

                                          •    Follow MEP and special instructions in five tests.

                                      IOCS:

                                      We observed 177 IOCS tests and did not identify any issues
                                      in at least 5 percent of the tests observed.7

                                      TRACS:

                                      We observed 17 TRACS tests and identified one test in
                                      which the data collector did not follow required procedures.
                                      Specifically, the data collector did not observe the entire
                                      contents of the vehicle when collecting the utilization data.

                                      SIRVO-IODIS:

                                      We observed 15 SIRVO-IODIS tests and did not observe
                                      any test errors.




4
  In this report, we discuss in detail only those test errors that occurred in at least 5 percent of the tests observed for
that system. Appendix B is a summary of all test errors identified.
5
  See Appendix A for a list of districts we audited and dates we observed tests.
6
  We identified a total of 33 test errors during ODIS-RPW test observations.
7
  We identified a total of seven errors during IOCS test observations.




                                                             5
Audit of Statistical Tests for Fiscal Year 2006 –                                             FF-AR-07-093
 Cost and Revenue Analysis


    Data Collection               In seven of the 18 districts, data collectors did not always
    Equipment                     follow procedures for protecting the data collection
                                  equipment. Specifically, data collectors did not:

                                       •   Place the CODES laptops into hibernation mode or
                                           lock the keyboard when their laptops were
                                           unattended (six districts).

                                       •   Secure the key to the CODES storage cabinet (one
                                           district).

                                       •   Secure the weight scales when not in use (one
                                           district).

                                  Postal Service policy8 requires data collectors to preserve
                                  the integrity of test data by putting laptops into hibernation
                                  mode or locking the keyboard when laptops are unattended.
                                  Additionally, the policy requires data collectors to store the
                                  CODES laptops and all other test equipment in a locked
                                  area when not in use. Data collectors cited various causes
                                  for why they did not always protect testing equipment. For
                                  example, data collectors in three districts stated they
                                  overlooked or forgot to perform the action; in two districts,
                                  data collectors stated they were unaware of the policy; and,
                                  in one district, data collectors were aware of the policy but
                                  stated that since the laptops hibernate automatically after a
                                  few minutes, they did not think they needed to initiate
                                  hibernation.

    Data Collection               Data collectors in two districts performed tests without first
    Training                      receiving the required Process Activated Training. Postal
                                  Service policy9 states that only trained data collectors under
                                  the direction of the Statistical Programs office are permitted
                                  to conduct tests. The Statistical Programs manager in one
                                  district stated he believed the data collectors had received
                                  the required training and, in the other district, the manager
                                  stated it was an oversight that the data collector had not
                                  received the required training.




8
  Handbook F-75, Data Collection User’s Guide for Revenue, Volume, and Performance Measurement Systems,
October 2003, Appendix G-7 (Section IV.F).
9
  Handbook F-75, Appendix G-8 (J).




                                                     6
Audit of Statistical Tests for Fiscal Year 2006 –                                          FF-AR-07-093
 Cost and Revenue Analysis


 Mail Exit Point                    Statistical Programs managers in two districts did not
                                    properly define MEPs, as required.10 Specifically, in one
                                    district, the manager had not updated the MEP to include
                                    references to accountable mail and, in the other district, the
                                    manager did not define in the MEP whether the mail flow
                                    was stream-based or shape-based. According to Postal
                                    Service policy, to ensure the accuracy of a MEP, units must
                                    fully describe and properly document the characteristics that
                                    make up a MEP. The manager in one district stated the unit
                                    had updated most of their MEP descriptions, and the
                                    manager in the other district stated the unit did not update
                                    the MEP due to an oversight. If management does not
                                    review MEPs as required, it could impact the precision of
                                    sample estimates.

                                    During our observations, we discussed the errors in the
                                    ODIS-RPW, IOCS, TRACS, and SIRVO-IODIS tests and
                                    other issues with data collectors and district Statistical
                                    Programs managers. Postal Service officials agreed with
                                    the errors we identified and made the appropriate
                                    corrections when possible.

 Recommendation                     We recommend the Vice President, Controller:

                                    1. Use training to reinforce data collection procedures to
                                       ensure data collectors:
                                            •   Utilize marking slips to identify test mail and follow
                                                mail exit point and special instructions during
                                                Origin-Destination Information System-Revenue,
                                                Pieces, and Weight tests.
                                            •   Observe the entire contents of the vehicle when
                                                collecting utilization data during Transportation
                                                Cost System tests.

 Management’s                       Management agreed with our recommendation and stated
 Comments                           by March 5, 2007, they will instruct Statistical Programs
                                    managers to reinforce data collection procedures to ensure
                                    the integrity of the statistical data.

 Evaluation of                      Management’s comments are responsive to our findings
 Management’s                       and recommendation and the action planned should correct
 Comments                           the issue identified in this report.

10
     Handbook F-75, Appendix J, pages J-25 and J-26.




                                                       7
Audit of Statistical Tests for Fiscal Year 2006 –                                  FF-AR-07-093
 Cost and Revenue Analysis




 Recommendation                   We recommend the Vice President, Controller:

                                  2. Reinforce policies for protecting the Computerized
                                     On-Site Data Entry System laptops and other test
                                     equipment, adhering to training requirements for data
                                     collectors, and properly defining mail exit points.

 Management’s                     Management stated they would reinforce policies about data
 Comments                         and laptop security, training requirements and defining
                                  MEPs by March 5, 2007.

 Evaluation of                    Management’s comments are responsive to our findings
 Management’s                     and recommendation and the actions taken or planned
 Comments                         should correct the issues identified in this report.




                                                    8
Audit of Statistical Tests for Fiscal Year 2006 –                                                         FF-AR-07-093
 Cost and Revenue Analysis




                APPENDIX A. FISCAL YEAR 2006 COST AND REVENUE
                   ANALYSIS: SUMMARY OF OBSERVATIONS OF
                       DATA COLLECTION PROCEDURES11



                                 ODIS-RPW                   IOCS                   TRACS             SIRVO-IODIS
                                          Total                  Total                  Total                   Total
                              Number     Number      Number     Number     Number      Number      Number      Number
                 Week Data    of Tests      of       of Tests      of      of Tests       of       of Tests       of
     District    Collected   Observed     Errors    Observed     Errors   Observed      Errors    Observed      Errors
Central          12/5/2005      4          0           10          1          1            0          -           -
Florida
New York         12/5/2005      8          0           18          0          0            0          -           -
South            1/23/2006      4          4            8          0          1            0          -           -
Jersey
Chicago          1/23/2006      8          4           19          2          2            0          -           -
Columbus         3/20/2006      4          10          10          2          1            1          -           -
Arkansas         3/27/2006      5          0           10          0          1            0          -           -
Capital           5/1/2006      4          4           10          0          1            0          -           -
Seattle           5/8/2006      4          0            9          0          1            0          -           -
Nevada-           5/8/2006      4          5            6          0          1            0          -           -
Sierra
Greater          5/15/2006      3          5           9           0          1            0          -           -
Michigan
Los              5/30/2006      8          0           21          0          2            0          -           -
Angeles
Maine            6/26/2006      4          0            9          0          1            0          -           -
Alaska           7/31/2006      4          0           10          0          1            0          -           -
Tennessee        7/31/2006      4          0           10          0          1            0          -           -
Northern          8/7/2006      4          1            9          2          -            0          -           -
Illinois
Central          8/14/2006      4          0           9           0          1            0          -           -
Plains
South            2/21/2006       -          -           -          -           -           -         10           0
Florida
Dallas           6/23/2006       -          -          -           -          -            -          5           0
Total                           76         33         177          7          1            1         15           0




11
  Although the percentage of tests with errors appears high, each test contains multiple records and fields.
Therefore, the percentage of erroneous test entries is much lower than the total number of tests containing errors.




                                                            9
Audit of Statistical Tests for Fiscal Year 2006 –                                                             FF-AR-07-093
 Cost and Revenue Analysis


                        APPENDIX B. SUMMARY OF TEST ERRORS
                           AND OBSERVATIONS BY DISTRICT
The table below presents the detailed test errors12 and observations identified by district.13

                                 Central                                      Greater     Nevada-                South       Total
                      Capital    Florida    Chicago    Columbus    Dallas     Michigan     Sierra    Northern    Jersey       Test
                      District   District   District    District   District    District   District    Illinois   District    Errors
   ODIS-RPW
Data Collectors
(DCs) did not
use marking            X (4)                 X (1)       X (4)                 X (1)       X (1)                  X (2)       13
slips to identify
test mail.
DCs did not
follow mail exit
                                                         X (3)                 X (2)                                           5
point or special
instructions.
DCs did not
communicate
                                                                                           X (1)                  X (2)        3
effectively with
unit personnel.
DCs did not
follow
procedures to
determine the
appropriate                                  X (2)                                         X (1)                               3
random start
and mailpiece
and/or container
skip intervals.
DCs did not
bring required
                                             X (1)                                                    X (1)                    2
test material to
the site.
DCs did not
correctly identify                                       X (2)                                                                 2
test mailpieces.
DCs did not
select the
correct country
                                                                               X (2)                                           2
code in
International
mailpieces.
DCs did not
identify and
                                                         X (1)                             X (1)                               2
isolate mail to
be tested.
DCs did not
notify unit
management                                                                                 X (1)                               1
prior to
conducting test.




12
     The numbers of tests with errors are shown in parentheses.
13
     Nine of 18 district reports had no reported testing errors. See Appendix A for details.




                                                             10
Audit of Statistical Tests for Fiscal Year 2006 –                                                             FF-AR-07-093
 Cost and Revenue Analysis

                                 Central                                      Greater     Nevada-                South       Total
                      Capital    Florida    Chicago    Columbus    Dallas     Michigan     Sierra    Northern    Jersey       Test
                      District   District   District    District   District    District   District    Illinois   District    Errors
        IOCS
DCs did not follow
scripted questions
                                  X (1)      X (2)       X (1)                                        X (2)                    6
and asked leading
questions.
DCs did not
request to speak
with a supervisor                                        X (1)                                                                 1
prior to conducting
tests.
       TRACS
DCs did not
observe the entire
contents of the
                                                         X (1)                                                                 1
vehicle when
collecting
utilization data.
       OTHER                                                                                                                 Total
 OBSERVATIONS                                                                                                               Number
                                                                                                                               of
                                                                                                                            Districts
DCs did not follow
procedures to
protect data             X          X          X                      X          X           X          X                      7
collections
equipment.
DCs conducted
test prior to
                                                          X                                             X                      2
receiving the
required training.
Manager of
Statistical
Programs did not                                          X                                  X                                 2
properly define
mail exit points.




                                                              11
Audit of Statistical Tests for Fiscal Year 2006 –        FF-AR-07-093
 Cost and Revenue Analysis


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                    12
Audit of Statistical Tests for Fiscal Year 2006 –        FF-AR-07-093
 Cost and Revenue Analysis




                                                    13
